                                                   TABLE OF CONTENTS


                                                                                                                                                 Page

1. Introduction..................................................................................................................................... 1

        A. Purpose .................................................................................................................................... 1

        B. Scope and Methodology.......................................................................................................... 1

        C. Background ............................................................................................................................. 2

2. Results of Audit................................................................................................................................ 4

        A. Recording Wire Transfers....................................................................................................... 4

        B. ERP Phase I Implementation and Controls Over Restricted Gifts ....................................... 7

        C. Recording Pledges ................................................................................................................. 10

        D. Reconciliation of Development and Membership Information System to the ERP......... 12

        E. Classification of Contributions as Unrestricted, Temporarily Restricted, or
           Permanently Restricted......................................................................................................... 14

Appendix 1. Comments of the Comptroller .................................................................................... 17

Appendix 2. Comments of the Director of External Affairs............................................................ 19



                                       ABBREVIATIONS AND ACRONYMS

                 CMO                                      Cash Management Office
                 DMIS                                     Development and Membership Information System
                 ERP                                      Enterprise Resource Planning
                 FASB                                     Financial Accounting Standards Board
                 OC                                       Office of the Comptroller
                 OCIO                                     Office of the Chief Information Officer
                 OD                                       Office of Development
                 OSP                                      Office of Sponsored Projects
                 OT                                       Office of the Treasurer
                 SD                                       Smithsonian Directive
                 SFS                                      Smithsonian Financial System




                                                                       iii
                                     INTRODUCTION

A. Purpose

The audit was included in our fiscal year 2003 plan because of the Institution’s increasing
reliance on the receipt of gifts to support Institution exhibits and programs. The objectives of
the audit were to determine whether (1) the Institution’s policies and procedures on restricted
gifts were adequate and provide sufficient guidance to the Institution staff; (2) the Institution
was following policies and procedures for the receipt, recording, and spending of restricted gifts;
and (3) restricted gifts were being used in accordance with the wishes of the donors.

B. Scope and Methodology

The audit fieldwork was conducted from March 20, 2003, to September 15, 2003, in
accordance with generally accepted government auditing standards. We determined
whether controls were in place to ensure that restricted gifts were properly recorded and
were used in accordance with the donors’ wishes. The scope of the audit covered
restricted gifts received by the Institution in fiscal years 2002 and 2003.

In order to determine whether controls over the receipt and recording of gift revenue
were working effectively, we interviewed staff at 16 museums, offices, and research
facilities (units). We reviewed the Office of the Comptroller (OC) and Office of
Development (OD) policies and procedures for receiving and recording restricted gifts,
including cash gifts and pledges. We reviewed OC and OD financial and management
reports relating to restricted gifts. We reviewed supporting schedules, reconciliation
worksheets, and journal entries prepared by OC during the fiscal year (FY) 2002 year-end
closing process to record and classify gift revenue. We reviewed supporting
documentation for gifts and pledges, including gift letters, transmittal forms, and other
related documents to determine whether gifts were properly classified. We reviewed unit
internal records used to track restricted gifts received.

In order to determine whether restricted gifts were being used in accordance with the
donors’ wishes, we reviewed policies and procedures related to spending and tracking
restricted gift expenditures. We reviewed unit internal records and financial reports used
to track expenditures from restricted gifts, as well as unit controls to reconcile their
records to the ERP. We selected and tested a statistical sample of 80 expenditures,
totaling $338,621, from a population of 4,954 expenditures, totaling $38,951,393, in gift
fund codes 800 and 801, during the period October 1, 2002, through April 30, 2003. For
each expenditure, we reviewed payroll cost reports and purchase orders, and discussed the
expenditure with the unit. We reviewed transmittal forms for gifts and pledges, gift
letters, and other related documents to determine the purpose of the gift.

We also interviewed representatives from OD; OC; the Office of the Chief Information
Officer (OCIO); the Office of Sponsored Projects (OSP); and the Office of the Treasurer
(OT).




                                                1
C. Background

The Institution receives significant contributions (gifts) from individuals, foundations,
corporations, and other organizations. Contributions are received in different forms,
including cash, marketable securities, and in-kind gifts. (In-kind gifts are goods and
services that would otherwise need to be purchased.) The Institution also receives
pledges, or “promises to give,” which are agreements to contribute cash or other assets to
the Institution. Cash contributions are primarily received by check or wire transfer.
Checks are received directly at the units or through a lockbox.

Financial Accounting Standards Board (FASB) Statement No. 117, Financial Statements of
Not-for-Profit Organizations, dated June 1993, requires classification of contributions in
three groups -- unrestricted, temporarily restricted, and permanently restricted -- based
on the existence or absence of donor-imposed restrictions. Donors’ restrictions impose
special responsibilities on management to ensure that it uses donated assets as stipulated.
The three groups are defined as follows:

   •   Unrestricted – contributions that are not restricted by donors.

   •   Temporarily restricted – a donor-imposed restriction that permits the donee
       organization to use up or expend the donated assets as specified and is satisfied either by
       the passage of time or by actions of the organization. For example, a temporary
       restriction may limit the organization’s use to a specific purpose, such as a project or
       program.

   •   Permanently restricted – a donor-imposed restriction that resources be
       maintained permanently but permits the organization to use up or expend part or
       all of the income derived from the donated assets. For example, endowment gifts
       are permanently restricted gifts.

Our audit covered both temporarily and permanently restricted gifts, but we focused our
testing on temporarily restricted gifts. In fiscal year 2002, the Institution received $108.1
million in contribution revenue. This $108.1 million included (a) unrestricted
contributions, totaling $51.1 million, (b) temporarily restricted contributions, totaling
$45.7 million, and (c) permanently restricted contributions, totaling $11.3 million. We
were unable to determine the classification breakdown of gifts received in fiscal year 2003,
because OC had not calculated this data at the time of our audit. According to OD’s
records, for FY 2003, during the period October 1, 2002, through April 30, 2003, the
Institution had received $35,550,373 in unrestricted, temporarily restricted, and
permanently restricted contributions.

Gift information is maintained in two separate systems: (1) the Development and
Membership Information System (DMIS), which is maintained by OD and (2) the ERP
accounting system, which OC maintains. DMIS is a database that is used for the
collection of information on cash gifts, pledges, in-kind gifts, donors and other fund-
raising information. Both ERP and DMIS contain gift information.

The units complete a Form SI-3011, Transmittal Form for Gifts & Promises to Give, for all
cash gifts, pledges, and in-kind gifts. Units fill in the amount of the cash or promise to


                                               2
give, account code, donor information, purpose of the gift, and payment schedule of the
pledge. For cash gifts, the Form SI-3011 and back-up documentation is submitted to OC
and OD. For pledges and in-kind gifts, the units submit the Form SI-3011 and back-up
documentation to OD.

Responsibilities for managing restricted gifts are divided among OC, OD, OT, and units.

OC is responsible for the following:

   •   Maintaining accounting records and ensuring that they are current and accurate
       on the basis of proper documentation received;
   •   Establishing fund numbers for temporarily restricted gifts;
   •   Preparing reports on the status of Trust funds for management purposes and for
       compliance with external reporting requirements;
   •   Assisting the units with administrative and financial matters involving temporarily
       restricted gifts; and
   •   Ensuring that obligations and expenditures against all funds do not exceed
       amounts provided and are made only for authorized purposes.

OD is responsible for the following:

   •   Maintaining a central database of gifts and pledges received;
   •   Preparing and distributing reports from the database to the units and senior
       management; and
   •   Working with OC to ensure that the ERP reflects accurate and appropriate
       information.

OT is responsible for the following:

   •   Administering endowment funds (permanently restricted) and
   •   Processing sales of securities donated to the Institution.

Individual units (museums, offices, and research facilities) are responsible for the
following:

   •   Completing a Form SI-3011, Transmittal Form for Gifts and Promises to Give, with
       supporting documentation, for all cash gifts, pledges, and in-kind gifts;
   •   Ensuring that funds committed by the units are within the amount available and
       for the purposes stated;
   •   Adhering to all restrictions and limitations on funds provided; and
   •   Working with OC to ensure that the ERP reflects accurate and appropriate
       information.

The ERP financial system was intended to help the Chief Financial Officer and Institution
management at all levels manage financial information successfully. The Institution put
the first phase of this system, including the general ledger, purchasing, and accounts
payable modules, into operation on October 1, 2002. Our office is also conducting an
audit of the implementation of the ERP.


                                               3
                                   RESULTS OF AUDIT

A. Recording Wire Transfers

As of May 2, 2003, the Cash Management Office (CMO) had identified a backlog of 84
unrecorded incoming restricted gifts and other types of wire transfers amounting to over
$30 million for the period of March 2003 through April 2003. These delays were caused
by reductions in staff and lack of formal training and procedures. This condition
prevented some units from being able to spend restricted gifts as needed. This lack of
available funds increases the risk of project and exhibition delays and decreases
management’s ability to manage its resources effectively.

Background

The Institution receives restricted gifts primarily through checks or wire transfers. The
CMO processes wire transfers. During the survey phase of the audit of restricted gifts, we
observed that there were delays in identifying and notifying the units of wire transfers
received from donors. Therefore, we expanded our review to include all wire transfers
received in March and April 2003. We conducted interviews of the CMO to further
investigate the units’ concerns regarding delays in the receipt, notification, and recording
of wire transfers.

SD 115, Management Controls, dated July 23, 1996, states that transactions should be
promptly recorded, properly classified, and accounted for in order to prepare timely
accounts and reliable financial and other reports.

The Draft SD 809, Financial Support From Outside the Smithsonian Institution, states that
electronically transferring funds into an Institutional account is an acceptable method of
receiving gift revenue. Units should notify the CMO of anticipated incoming donations
and contributions. E-mail should be used to notify the CMO of the units’ account
chartfields to which the funds should be credited.

Smithsonian Institution Blue Bulletin, dated April 28, 2003, states that OC is committed
to processing all revenue entries within five days.

Smithsonian Institution PeopleSoft Document Processing, Issues and Status of Progress
Within the Office of the Comptroller, states that the OC standard processing turn-around
time per document for the posting of gift income is five days.

Results of Review

Wire transfers of incoming gifts were not always recorded to the units’ account chartfields
on a timely basis. Based on interviews with the units and reviews of supporting
documentation, we found the CMO had delayed recording 11 wire transfers of incoming
gifts and reimbursements, in FY 2002 and FY 2003, totaling over $1.8 million, by 2 to 13
weeks after the wires were deposited into the Institution’s master bank account.

Through discussion with the CMO, we found that the CMO had identified a backlog of 84
incoming wire transfers. This backlog amounted to $30 million out of $126 million in wire
transfers received from March 1, 2003, through April 30, 2003. Although the cash received was


                                               4
deposited and invested, the associated revenue or credit to a receivable was not recorded to the
units’ accounts in a timely manner. These transfers included restricted gifts, grant payments,
payments to Smithsonian units, transfers of endowment income, and other transfers. We
determined that transactions on the backlog list were recorded 2 to 16 weeks after receipt. We
found that corrective action was initiated during the audit. As of August 6, 2003, the CMO had
identified and classified 61 of the transactions, reducing the backlog to $612,958.

These delays in recording income to the units’ accounts were caused by reductions in
CMO staff in FY 2002 and lack of formal training and procedures. The departing staff
possessed significant Institutional knowledge. In the first quarter of FY 2003, the ERP
working group1 did not conduct formal, functional training2 on recording revenue or
develop written procedures on recording revenue when the new ERP general ledger,
purchasing, and accounts payable modules were implemented on October 1, 2002. The
CMO had not developed procedures for recording expected revenue and recording
revenue received. The CMO had also not developed procedures for the units to notify the
CMO of incoming revenue.

Because the CMO did not promptly record all the wire transfers, including restricted gifts,
to the appropriate chartfields, the units were unable to access restricted gifts and other
monies. For wire transfers of incoming gifts, the delay prevented two units from
obligating funds needed to meet their project and exhibition goals and timelines.

Because the CMO had not developed procedures for the units to notify the CMO of
incoming revenue, not all of the units were sending advance notice to the CMO. Without
advance notice from the units, the CMO has to conduct additional time-consuming
research to determine the beneficiary of the funds and has been unable to record the
revenue within five days, as required by OC. In addition, some of the units had not
provided the CMO with a chartfield, which prevented the CMO from promptly recording
the revenue.

Conclusion

We believe that improved policies and procedures, as well as functional training for the
receipt and recording of wire transfers, are needed for both CMO staff and staff at the
individual units. Adequate policies and procedures as well as functional training will
improve the Institution’s ability to effectively and efficiently record incoming wire
transfers. Improvements in wire transfer processing would make funds available to units
more quickly, which would allow the units to fulfill their mandates more effectively.

Recommendations

We recommended that the Comptroller:

    1. With the assistance of OCIO, develop and implement written procedures and
       provide training for OC staff on recording revenue. These policies should include
       plans for cross-training CMO staff.

1
  Working groups define functional processes, serve as change agents by coordinating changes to the work
environment, and identify training needs.
2
  Functional training instructs the users how to conduct day-to-day operations using the ERP.



                                                      5
   2. Develop and distribute formal written procedures instructing the units to provide
      advance notice to the CMO of all expected wire transfers, including restricted
      gifts.

Management Comments

   1. Concur. OC, with the assistance of OCIO, will develop and implement written
      procedures and provide training to OC staff on recording revenue. These policies
      will include cross-training CMO staff. The target date for development and
      implementation will be September 30, 2004.

   2. Concur. OC is in the process of developing and distributing formal written
      procedures instructing the units to provide advance notice to the CMO of all
      expected wire transfers, including restricted gifts. The target date for completion
      will be December 31, 2003.

Office of the Inspector General Response

The Comptroller’s plans of action are responsive to our recommendations.




                                             6
B. ERP Phase I Implementation and Controls Over Restricted Gifts

Certain expenses paid from restricted gift funds, including payroll, petty cash, and
centrally billed travel expenses, were not promptly entered into the ERP from October 1,
2002, to March 31, 2003. In addition, fiscal year 2003 beginning available balances, which
included restricted gift funds, were not provided to the units to review until July 2003.
These conditions were caused by several factors, including a lack of written procedures
and training of OC staff, and delays in defining chartfield elements, such as program
codes. Without prompt data entry of expenses, accounting information is not accurate
and management cannot depend upon accounting information to manage the
Institution’s operations, including the use of restricted gift funds.

Background

The Institution is implementing a new ERP system to improve its financial and human
resources information. The ERP system replaced the Smithsonian Financial System (SFS)
and is being implemented incrementally from FY 2003 through FY 2005. The first phase
was implemented on October 1, 2002, and included the general ledger, accounts payable,
and purchasing modules.

The Institution has several manuals and directives which govern the implementation of
the new financial system. OCIO’s Information Technology Life Cycle Management
(LCM) Manual and SD 920, Life Cycle Management, both indicate end-users should
participate early in life cycle activities in order to validate functional requirements.
Business process re-engineering should occur before application software development, as
should coordinated processing between the current and target environments.

SD 305, Administrative Control of Funds, dated March 15, 1999, states that heads of
museums, research institutes, and offices are responsible for working with OC to ensure
that ERP reflects accurate and appropriate information. SD 115, Management Controls,
dated July 23, 1996, states that transactions should be promptly recorded, properly
classified, and accounted for in order to prepare timely accounts and reliable financial
and other reports.

Results of Review

In examining controls over restricted gifts, we discovered two issues surrounding the
current implementation of ERP. Certain expenses -- payroll, petty cash, and centrally
billed travel -- paid from restricted gift funds were not promptly entered in ERP, and
reports on beginning available balances for restricted gift funds were not provided to the
units promptly.

Payroll transactions for the period October 2002 to March 2003 were not posted in ERP
until April 2003. As of July 2003, petty cash transactions totaling $181,107 out of
$301,825 (or 60 percent) of all petty cash transactions for the period November 2002 to
June 2003 had not been posted. Centrally billed travel expenses, totaling $915,572, were
not allocated to the appropriate Smithsonian units in ERP for the period October 2002
through June 2003 until July 2003. As of July 31, 2003, OCIO allocated all but $3,194 of
these travel expenses to the units.




                                              7
Fiscal year 2003 beginning available balances were not provided to the units to review
until July 2003. As of September 15, 2003, units were still verifying the balances.

This condition had several causes:

         •   Payroll was not posted from October 2002 through March 2003 because of (1)
             delays in defining chartfield elements, such as program codes, and (2) the need
             for coding modifications to Payroll Accounting Distribution System (PAYES),
             the payroll interface system which links National Finance Center payroll data
             to the ERP.

         •   Petty cash expenses were not promptly posted in the ERP because (1) the ERP
             working group did not conduct formal functional training or develop written
             petty cash recording procedures for OC staff, and (2) there were reductions in
             OC staff. As of July 2003, OC had not posted all petty cash transactions.

         •   Centrally billed travel was not posted in a timely manner because the ERP did
             not reconcile with Travel Horizons3. OCIO has to perform a time-consuming,
             manual process of allocating units’ centrally billed travel back to the
             appropriate units.

         •   Beginning balance reports were not made available to the units until 9 months
             (July 2003) after the October 1, 2002, ERP Phase I implementation date
             because, according to OC, the conversion of multi-year funds was more
             complicated than anticipated. As of September 15, 2003, units were still
             verifying the balances.

As a result, unit management and staff could not always depend on ERP to provide
accurate and complete financial information to ensure that restricted gifts were being
spent in accordance with the donors’ wishes. Because payroll, petty cash, and centrally
billed travel expenditures were missing, and beginning balance information was not
verified in a timely manner, unit staff could not always reconcile their internal records on
restricted gift funds with ERP reports.

The inability to adequately monitor all expenditures from gift funds increased the risk
that restricted gifts could be spent contrary to the donor’s original intent, and decreased
management ability to make informed spending decisions on a daily basis. For example,
in our testing of FY 2003 expenditures from gift funds, we found one instance in which a
unit spent approximately $18,000 in restricted gift funds contrary to a donor’s intent
because ERP did not contain payroll transactions and Payroll Cost Reports were not
available until May 2003. Spending from this fund occurred between October 2002 and
January 2003, but unit staff did not detect the errors until June 2003. Although unit staff
could track payroll costs using internal records, they could not reconcile their records to
the Payroll Cost Reports during this time because payroll information had not been
posted in ERP. Our office is conducting a audit of the ERP implementation that will
more comprehensively address the issues surrounding the implementation.


3
 Travel Horizons is the Institution’s contract travel agency. The Institution sought to reconcile with Travel
Horizon’s electronic records.



                                                       8
Conclusion

Expenses should be entered into the accounting records promptly to ensure that accurate,
timely information is available to provide the basis for management decisions. Institution
management needs accurate expense information to ensure that exhibits, research,
outreach and other activities are properly managed within available resources, particularly
when these activities are funded by contributions with donor-imposed restrictions.
Critical to this process are adequate written procedures and training of staff responsible
for ensuring data is accurately entered into the accounting system.

Corrective Actions Taken

During the course of our audit, OC utilized a contractor to prepare written procedures on
processing petty cash reimbursement. These procedures were completed on March 13,
2003.

Recommendations

We recommended that the Comptroller:

    1. Complete the review of the units’ beginning available balances.

    2. In coordination with the Office of Contracting, review the procedures for
       centrally billed travel.

Management Comments

    1. Concur. OC completed the review of the units’ beginning balances in September
       2003. OCIO is resolving a small number of balances related to system
       reconciliation issues. OC believes this finding is complete concerning OC’s
       corrective action.

    2. Concur. In coordination with the Office of Contracting, OC will review the
       procedures for centrally billed travel. Target date for completion will be June 30,
       2004.

Office of the Inspector General Response

    1. The Comptroller’s action is responsive to our recommendation and we have
       closed this recommendation.

    2. The Comptroller’s plan of action is responsive to our recommendation.




                                              9
C. Recording Pledges

OC did not record pledges (promises to give) in the official accounting system4 until year-
end. In fiscal year 2002, at year-end, OC made a manual journal entry for total pledges
received based on a listing of pledges from the Development and Membership
Information System (DMIS), which is maintained by OD. Recording pledges in the
official accounting system only at year-end increases the risk that information on
contributions receivable and revenue may not be complete and accurate. Also, there are
no interim reports of pledges during the year from the official accounting system.
Management needs timely financial reporting of accounting information to make
informed decisions about the allocation of resources. In addition, recording pledges only
at year-end creates additional work during the year-end closing process.

Background

A pledge, or promise to give, is an agreement from a donor to contribute cash or other
assets to the Institution. In fiscal year 2002, the Institution received 108 new pledges,
totaling $45,588,802. In fiscal year 2003, during the period October 1, 2002, through
April 30, 2003, the Institution received 105 new pledges, totaling $10,602,279. The units
complete a form SI-3011, Transmittal Form for Gifts and Promises to Give, for each pledge
and send it directly to OD. OD records pledge information in DMIS. OC records pledges
in the ERP only at year-end based on listings of pledges from DMIS.

Smithsonian Directive (SD) 115, Management Controls, dated July 23, 1996, states that
transactions should be promptly recorded, properly classified, and accounted for in order
to prepare timely accounts and reliable financial and other reports.

FASB Statement No. 116, Accounting for Contributions Received and Contributions Made,
dated June 1993, states that unconditional promises to give (pledges) should be
recognized as contribution revenue and receivables in the period in which the promise is
received.

Results of Review

OC did not record pledges, which are also known as promises to give, in the official
accounting system until year-end. In fiscal year 2002, at year-end, OC made a manual
journal entry for total pledges received based on a listing of pledges from DMIS. OD
maintains DMIS. OC has access to DMIS and can run DMIS reports. During the year,
OC maintains spreadsheets of pledges received and updates these spreadsheets monthly
using the information in the DMIS reports.

OC advised that the ERP does not currently have an accounts receivable module which
would facilitate the recording of receivables. According to OC, the process will change
when the Institution implements this module. Pledges will be recorded when received,
and the ERP will perform the calculations for discounting, as well as tracking pledge


4
 Because this condition occurred when the Institution was using both the old accounting system SFS and
the new system ERP, we used the term official accounting system to prevent confusion. We used the term
official accounting system to distinguish SFS and ERP from the “cuff” or subsidiary systems maintained by
the units.



                                                      10
payments. The estimated implementation date for the accounts receivable module is
September 2004.

Recording pledges only at year-end increases the risk that pledge information may not be
complete and accurate. Also, there are no interim reports of pledges during the year from
the ERP. Management needs timely financial reporting of accounting information to
make informed decisions about the allocation of resources. Recording pledges only at
year-end also creates additional work during the year-end closing process. The
Smithsonian’s year-end process for closing the books and preparing financial statements
is very time-consuming and labor-intensive. Recording pledges during the year will help
expedite this process.

Conclusion

We believe that recording pledges in ERP on a periodic basis during the year would
increase the Institution’s ability to maintain accurate financial records necessary to make
informed management decisions, as well as expedite the year-end closing process. Future
implementation of the accounts receivable module will also improve the efficiency of
recording and tracking pledge payments.

Recommendation

We recommended that the Comptroller record pledges in the ERP periodically during the
year, either monthly or quarterly, until the accounts receivable module is implemented.

Management Comments

Concur. OC will record pledges in the ERP quarterly beginning with the first quarter of
FY 2004 until the accounts receivable module is implemented.

Office of the Inspector General

   1. The Comptroller’s plan of action is responsive to our recommendation.




                                              11
D. Reconciliation of the Development and Membership Information System
   to the ERP

OD did not reconcile DMIS to the official accounting system. 5 OD had difficulty
comparing the data between these systems because of differences in the definitions of data
elements, delays in posting revenue into the accounting records, and inconsistent data
being entered into the accounting records. The lack of a reconciliation of data between
these systems increases the risk of inaccurate data in DMIS, which in turn decreases the
effectiveness of information available for management decisions.

Background

OD maintains a database, DMIS, which is used for the collection of information on cash
gifts, pledges, donors and other fund-raising information. OD receives the Form SI-3011,
Transmittal Form for Gifts and Promises to Give, and back-up documentation from the
units or OC, and enters the information into DMIS. All cash gifts, promises-to-give, and
in-kind gifts are recorded in DMIS. During the year, OC also records all cash gifts
received (including payments on pledges) in the accounting system. Periodically, and at
the end of the year, OC sends OD a gift listing from the accounting system of all cash gifts
received. This listing is used to reconcile DMIS to the accounting system.

SD 305, Administrative Control of Funds, dated March 15, 1999, states that heads of
museums, research institutes, and offices are responsible for working with OC to ensure
that the ERP reflects accurate and appropriate information.

Internal procedures, entitled Gift Administration and SI-3011 Distribution, dated October
19, 1998, issued jointly by OC and OD, state that reports to be sent, on a regular basis, to
each unit to be checked for completeness and accuracy. If any contributions are missing
or credited to the wrong project, the units should contact the Registrar in the OD. These
internal procedures further state that, at the end of each year, OD uses these reports to
reconcile the information on the OD and OC databases.

Results of Review

OD did not perform a reconciliation of DMIS to the official accounting system in fiscal
years 2002 or 2003. OD and OC developed a report to assist the reconciliation of SFS and
DMIS; however, the reconciliation was not completed. OD advised that, although several
attempts were made, reconciliation was never completed because of difficulties in
reconciling the two systems.

OD had difficulty reconciling the data in these two systems because of differences in the
definitions of data elements, delays in posting revenue into the accounting records, and
inconsistent data being entered into the accounting records. Specifically, we found that:

       •    In FY 2002, OD reports used the check date rather than the deposit date. In FY
            2003, OD started using the deposit date.



5
    See note 4.



                                                 12
   •    In FY 2003, during the period October 1, 2002, through December 31, 2002, we
        found that there were excessive delays (3 to 12 weeks) between the deposit date
        and the date the revenue was entered in ERP.

   •    In FY 2003, we found inconsistent data entry in the reference field in ERP. In
        some cases the SI-3011 number was entered and, in other cases, the check number
        was entered.

Monthly, OD sends reports from DMIS to the Secretary, the Under Secretaries, the
Director of the International Art Museums Division, and the unit directors. At the end of
the year, OD also issues an annual report using the information in DMIS. The lack of
reconciliations increases the risk that these reports from DMIS may be inaccurate or
incomplete, which could lead to faulty management decisions.

Conclusion

We believe that the reconciliation between DMIS and ERP is needed to ensure that the
information in DMIS is accurate, complete, and consistent with the information in the
ERP. Complete and accurate information about gifts received is needed by management
in making decisions about resource allocation.

Recommendations

We recommended that:

   1.   The Director of External Affairs reconcile DMIS to the ERP at least quarterly.

   2.   The Comptroller develop uniform data entry procedures for the reference and
        date fields in ERP. The Comptroller should also meet with OD to discuss these
        fields and the reconciliation process.

Management Comments

   1.   Concur. The Director of External Affairs anticipates that a target date for full
        compliance with the recommendation will be June 30, 2004, assuming
        satisfactory training and data entry procedures in OC have taken place.

   2.   Concur. The Comptroller will develop uniform data entry procedures for the
        reference and date fields in ERP and will meet with OD to discuss these fields and
        the reconciliation process. The target date for development of procedures will be
        June 30, 2004.

Office of Inspector General Response

   1.   The Director’s plan of action is responsive to our recommendation.

   2.   The Comptroller’s plan of action is responsive to our recommendation.




                                              13
E. Classification of Contributions as Unrestricted, Temporarily Restricted, and
   Permanently Restricted

Units -- museums, offices, and research facilities -- had not always classified gifts into the
proper categories -- unrestricted, temporarily restricted, and permanently restricted -- for
financial statement reporting. Unit personnel responsible for classifying gifts on the
Form SI-3011, Transmittal Form for Gifts and Promises to Give, did not clearly understand
the distinctions between these classifications. Because the units did not always classify
gifts correctly, OC could not rely on the account codes that were entered into the official
accounting system6, during the year, to prepare the financial statements. Rather, OD and
OC did a special review at year-end to classify gifts correctly as temporarily restricted.
This process is very time consuming and labor intensive. Also, because OC does not
correctly classify temporarily restricted gifts until year-end, management did not have
accurate reports from the ERP, during the year, on unrestricted and restricted
contributions.

Background

The units complete a Form SI-3011, Transmittal Form for Gifts and Promises to Give, for
all cash gifts, pledges, and in-kind gifts. The units are responsible for filling in the
account code on the Form 3011.

FASB Statement No. 116, Accounting for Contributions Received and Contributions Made,
dated June 1993, and SD 318, Externally Funded Grants and Sponsored-Project Contracts,
dated June 28, 1998, state that contributions (gift) should be classified as unrestricted,
temporarily restricted, or permanently restricted. These terms are defined in SD 318 as
follows:

       •    Unrestricted (Account Code 5601) - Unrestricted contributions may be used for
            any purpose because they are received without donor-imposed restrictions on
            their use.

       •    Temporarily Restricted (Account Code 5602) - Temporarily restricted
            contributions are subject to donor-imposed restrictions that permit the
            Institution to use the donated assets as specified and are satisfied either by the
            passage of time or by actions of the Institution.

       •    Permanently Restricted (Account Code 5603) - Permanently restricted
            contributions must be maintained in perpetuity but the Institution may expend
            part or all of the income or other economic benefits derived from the donated
            assets.

Results of Review

Units did not always accurately classify gifts received as unrestricted, temporarily
restricted, or permanently restricted. We found $10,625,764, or 23 percent, out of a total
of $45,904,980 in temporarily restricted gifts received in FY 2002, that was incorrectly
classified by the units during the year. Of the $10,625,764 in misclassified gifts,
6
    See note 4.



                                                    14
$9,572,515 was incorrectly classified as unrestricted, and $1,053,249 was incorrectly
classified as permanently restricted. These classification errors were made by 13 units
throughout the Institution. At the end of the year, during the year-end process for
preparing financial statements, OC correctly classified these gifts as temporarily restricted.

Units advised that they did not completely understand the definitions of unrestricted,
temporarily restricted, and permanently restricted. The definitions in SD 318 and in
other internal procedures were written in accounting terms and did not include specific
examples. We found that the most recent written internal procedures on processing gifts
were issued by OC on October 19, 1998.

Because the units did not always classify gifts correctly, OC did not rely on the account
codes that were entered into the official accounting system during the year to prepare the
financial statements. Rather, OD and OC did a special review at year-end to correctly
classify gifts as temporarily or unrestricted7. At year-end, OC sends OD a listing of new
gifts. OD reviews the gift information in DMIS and notes on the listing which gifts are
temporarily restricted. OC then prepares a manual reconciliation of temporarily
restricted gifts. This process is very time-consuming and labor-intensive.

Because OC did not correctly classify temporarily restricted gifts until year-end,
management does not have accurate reports from the accounting system during the year
on unrestricted and restricted contributions. Instead of using the accounting system,
units relied on their internal “cuff” records to ensure that gifts were spent in accordance
with the donors’ wishes. 8

Conclusion

OC and the units should work together to improve the accuracy of account codes
(unrestricted, temporarily restricted, and permanently restricted) at the transaction level
during the year rather than waiting until year-end. More accurate classification of
transactions during the year will increase the usefulness of financial information available
in ERP by facilitating the preparation of accurate, periodic (quarterly or monthly) reports
and expediting the year-end closing and financial reporting process. To reduce unit
dependence on “cuff” records and increase their confidence in the accuracy of ERP
information, we believe that the units should work with OC to ensure the accuracy of the
account codes in ERP.

Recommendation

We recommended that the Comptroller develop written procedures on classifying
contributions that are simpler and more understandable. These procedures should
include examples whenever possible.

Management Comments

Concur. OC will develop written procedures on classifying contributions that are simpler
and more understandable. The target date for completion will be June 30, 2004.
7
 The third group of gifts, permanently restricted gifts, are classified by the Treasurer’s office.
8
 Units maintain “cuff” or subsidiary records because the ERP is not yet able to meet the users’ needs for
management and financial information.



                                                       15
Office of Inspector General Response

The Comptroller’s plan of action is responsive to our recommendation.




                                            16
                                      APPENDIX 1

WRITTEN COMMENTS BY THE COMPTROLLER




                 17
                                      APPENDIX 1

WRITTEN COMMENTS BY THE COMPTROLLER




                  18
                                               APPENDIX 2

WRITTEN COMMENTS BY THE DIRECTOR OF EXTERNAL AFFAIRS




                          19
